U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 12, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Oregon, et al v. Alex M. Azar, Secretary of Health and Human Service, et al,
S.Ct. No. 20-539

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 5,
2020, and placed on the docket on October 23, 2020. The government’s response is due on
November 23, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 23, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0539
OREGON, ET AL.
ALEX M. AZAR, SEC. OF HEALTH & HUMAN
SERVICES, ET AL.

BARBARA DALE UNDERWOOD
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL
28 LIBERTY STREET
NEW YORK, NY 10005-1400
212-416-8016
BARBARA.UNDERWOOD@AG.NY.GOV

